No. 20-7291

Qu the Supreme Count of the United States
JOHN Harris, PETITIONER,
v.
STATE OF ILLINOIS, RESPONDENT.
On Petition for a Writ of Certiorari

to the Illinois Appellate Court

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
Respondent contains 3491 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 19, 2021.

S\inord

   

100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondent

 
